PROOF OF SERVICE
I am a resident of the County aforesaid; I am over the age of 18 years; my address is:
9454 Wilshire Blvd, #600. Beverly Hills, California 90212.
On June 10, 2021, I served the within PETITION FOR WRIT OF CERTIORARI
on the interested parties in said action, by placing a true copy thereof enclosed in a
sealed envelope with postage thereon fully prepaid, in the United States mail,
addressed as follows:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
Vinodhini Ramagopal, Deputy Attorney General
Vinodhini.Ramagopal@doj.ca.gov
California Department of Justice
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Executed on June 10, 2021, at Los Angeles, California. I declare under penalty of
perjury that the foregoing is true and correct.
-

■/

Judith Sullivan

17
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

J

